    March 17, 2006




Financial Management

Appropriated Funds Distribution
Within the Program Budget
Accounting System
(D2006-064)




                  Department of Defense
                 Office of Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit, Audit Followup and Technical Support at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                      Department of Defense Inspector General
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704




Acronyms
DCD                   Defense Finance and Accounting Service Corporate Database
DCW                   Defense Finance and Accounting Service Corporate Warehouse
DFAS                  Defense Finance and Accounting Service
FAD                   Funding Authorization Document
OA/ASN                Operating Agency/Allotment Serial Number
PBAS-FD               Program Budget Accounting System Funds Distribution Module
                             INSPECTOR GENERAL
                           DEPARTMENTOFDEFENSE
                            400 ARMY NAVY DRIVE
                       ARLINGTON, VIRGINIA 22202-4704




                                                                           March 17,2006

MEMORANDUM FOR DEPUTY ASSISTANT SECRETARY OF THE ARMY
                 (BUDGET)
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
SUBJECT: Report on Appropriated Funds Distribution Within the Program Budget
         Accounting System (Report No. D-2006-064)

      We are providing this report for review and comment. We considered
management comments on a draft of this report when preparing the final report.
       DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Deputy Assistant Secretary of the Army (Budget) comments were partially
responsive. We request additional comments on Recommendation B. 1. by
April 17,2005.
       If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Auddfs@dodig.mil. Copies of the management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).
        We appreciate the courtesies extended to the staff. Questions should be directed
to Jack L. Armstrong at (317) 510-3846 (DSN 699-3846) or Mr. Paul C. Wenzel at (317)
5 10-3859 (DSN 699-3859). See Appendix B for the report distribution. The audit team
members are listed inside the back cover.
                               By direction of the Deputy Inspector General for Auditing:



                                         Paul &ranetto, CPA
                                       Assistant Inspector General
                                       Defense Financial Auditing
                                                 Service
                Department of Defense Office of Inspector General
Report No. D-2006-064                                                     March 17, 2006
   (Project No. D2005-D000FI-0065)

                 Appropriated Funds Distribution Within the
                    Program Budget Accounting System

                                     Executive Summary

Who Should Read This Report and Why? DoD personnel responsible for distributing,
controlling, and accounting for DoD funding authority using the Program Budget
Accounting System Funds Distribution Module (PBAS-FD) should read this report. The
report identifies an internal control weakness regarding the use of PBAS-FD.

Background. We performed this audit at the request of Defense Finance and
Accounting Service Indianapolis. Defense Finance and Accounting Service Indianapolis
provides finance and accounting support to the Army. This support includes
responsibility for establishing internal control procedures for the distribution of funding
authority. The Army uses PBAS-FD to control and account for the distribution of DoD
funding authority. More than 2,400 Army organizations receive funding through the
module. During 2005, DoD managers used PBAS-FD to distribute $149 billion in
FY 2005 Army appropriations.

During our audit, the Defense Finance and Accounting Service Indianapolis organization
responsible for the design, operation, and maintenance of PBAS-FD was called the
Program Funds Accounting Systems Division, Directorate for Accounting Systems.
After the audit, this organization was renamed the PBAS Office and subordinated to the
Defense Finance and Accounting Service Director for Information and Technology/Chief
Information Officer.

Results. Fund distribution data within PBAS-FD accurately and completely reflected the
financial limits and boundaries set forth in the Army portion of the FY 2005 Department
of Defense Appropriations Act. However, Army financial managers could not use funds
distribution data accumulated in PBAS-FD records effectively. As a result, managers
could not exercise timely, effective oversight of funds distribution (finding A).

Controls over funds distribution performed through PBAS-FD need improvement. Army
organizations issued funding authorization documents without adequate review and
approval, and Defense Finance and Accounting Service Indianapolis did not adequately
control access to PBAS-FD edit tables. As a result, Army funds may be distributed
incorrectly or to unauthorized recipients (finding B).

The Director of Defense Finance and Accounting Service Indianapolis should modify
PBAS-FD and the Defense Finance and Accounting Service Corporate Database to
record funds distribution information at the transaction level. The Director, Army
Budget should require that funding authorization documents be reviewed and approved
by appropriate personnel. In addition, the Director of the Defense Finance and
Accounting Service should establish user access controls to PBAS-FD by requiring
responsible officials to authorize changes to the PBAS-FD edit tables and to ensure that
the PBAS-FD edit tables are made and kept current. Also, the Director of Defense
Finance and Accounting Service Indianapolis should require that user access to
PBAS-FD be reported as a material internal control weakness in the Annual Statement of
Assurance until corrective actions have been taken and verified. (See the Finding section
of the report for the detailed recommendations.)

Management Comments and Audit Response. The Director, Information and
Technology, Defense Finance and Accounting Service, concurred with two
recommendations and nonconcurred with the recommendation to report user access to
PBAS-FD as a material internal control weakness in the Annual Statement of Assurance
until corrective actions have been taken and verified. The Director, Information and
Technology stated that the internal control deficiencies identified were not material but
has agreed to correct the identified deficiencies by June 30, 2006. Because the other two
recommendations will be implemented before the end of the fiscal year, we consider the
Director’s comments to be responsive; therefore, no further comments are required. The
Director of Management and Control, Office of the Assistant Secretary of the Army
(Financial Management and Comptroller) concurred with the recommendation on
funding distribution controls but did not agree to take corrective action or specify a
completion date. We request that the Director of Management and Control provide
comments on the final report by May17, 2006. See the Finding section of the report for a
discussion of management comments and the Management Comments section of the
report for the complete text of the comments.




                                            ii
Table of Contents

Executive Summary                              i

Background                                     1

Other Matters of Interest                      2

Objective                                      2

Managers’ Internal Control Program             3

Findings
     A.         Funds Distribution Data       4
     B.         Funds Distribution Controls   7

Appendixes
     A.         Scope and Methodology         13
     B.         Report Distribution           15

Management Comments
     Department of the Army                   17
     Defense Finance and Accounting Service   20
Background
    We performed this audit at the request of Defense Finance and Accounting
    Service (DFAS) Indianapolis.

    Defense Finance and Accounting Service Indianapolis. DFAS Indianapolis
    provides finance and accounting support to the Army, including the maintenance
    of the Army’s accounting records and accounting systems. DFAS Indianapolis’s
    Directorate for Accounting Systems and Procedures is responsible for the design,
    operation, and maintenance of several automated accounting systems used by
    Army organizations. The Directorate’s Program Funds Accounting Systems
    Division was responsible for the design, operation, and maintenance of Program
    Budget Accounting System (PBAS) Funds Distribution (FD), the official fund
    distribution and control system. After the audit this organization was renamed
    the PBAS Office and subordinated to the Defense Finance and Accounting
    Service, Director, Information and Technology/Chief Information Officer.

    PBAS-FD. DFAS Indianapolis Regulation 37-1, “Finance and Accounting Policy
    Implementation,” chapter 3, May 2004, states that the Program Budget
    Accounting System (PBAS) is the vehicle for controlling distribution of funds
    within the Army. The Army uses PBAS-FD to control and account for the
    distribution of DoD funding authority. More than 2,200 Army organizations
    receive funding through PBAS-FD.

    The Army Accounting System. DFAS Indianapolis is currently completing the
    development of a new Army accounting system. The DFAS Corporate Database
    (DCD) receives transactional data from various Army accounting systems such as
    PBAS-FD, translates the data into a standard format, and prepares general ledger
    entries which are then stored in the collection of electronic files known as the
    DFAS Corporate Warehouse (DCW). In effect, DCD and DCW, operating
    together, form the Army’s general journal. Although DCD/DCW are not yet
    completely operational, PBAS-FD provides DCD/DCW with daily and monthly
    summaries of fund distribution transactions, such as Funding Authorization
    Documents (FADs) and reprogramming actions.

    FY 2005 Appropriation Acts. During FY 2005, Army managers used PBAS-FD
    to distribute $149 billion in FY 2005 Army appropriations contained in the Army
    portions of four congressional appropriation acts (FY 2005 Army Appropriations
    Acts):

           •   Public Law 108-287, FY DoD Appropriations Act, August 5, 2004;

           •   Public Law 108-324, Military Construction Appropriations and
               Emergency Hurricane Supplemental Appropriations Act, 2005,
               October 13, 2004;

           •   Public Law 108-447, Consolidated Appropriations Act, 2005,
               December 8, 2004; and




                                        1
                   •   Public Law 109-13, Emergency Supplemental Appropriations Act for
                       Defense, the Global War on Terror, and Tsunami Relief, 2005,
                       May 11, 2005.

           Funds Distribution. Two levels of Army organizations use PBAS-FD to
           distribute funding authority: the Army Budget Office and Army command
           operating agencies. The Army Budget Office uses PBAS-FD to distribute
           funding authority in the form of FADs to operating agencies controlled by major
           Army commands. FADs also specify the purpose for the funds distributed.
           Operating agencies use PBAS-FD to further distribute funding authority to
           subordinate organizations known as allotment holders. Allotment holders can
           commit, obligate, expend, and disburse financial resources.

           The Army Budget Office can reprogram (move) funds from one organization to
           another. However, the Army Budget Office can move funds from one
           appropriation or program to another only to the extent established by Congress in
           negotiations with the Office of the Under Secretary of Defense
           (Comptroller/Chief Financial Officer). Operating agencies may move funds
           subject to the same restrictions as the Army Budget Office, plus additional
           constraints established by Army managers. Congress establishes the maximum
           amount of transfers between appropriations available to DoD in each annual DoD
           appropriations act. Congress set this limit at $3 billion for FY 2005. Congress
           also set limits for each supplemental appropriations act issued during FY 2005. If
           reprogramming requires moving funds among appropriations or exceeds the
           amounts negotiated by Congress and the Office of the Under Secretary of Defense
           (Comptroller/Chief Financial Officer), the Army Budget Office must obtain prior
           congressional approval.*


Other Matters of Interest
           During the audit, the DFAS Indianapolis organization responsible for the design,
           operation, and maintenance of PBAS-FD was the Program Funds Accounting
           Systems Division, Directorate for Accounting Systems. After the audit this
           organization was renamed the PBAS Office and subordinated to the Defense
           Finance and Accounting Service, Director, Information and Technology/Chief
           Information Officer.


Objective
           Our overall objective was to determine whether fund distribution within PBAS
           accurately and completely reflected the financial limits and boundaries set forth in
           the annual Department of Defense appropriations act. In addition, we evaluated


*
    This paragraph was revised based on comments on the draft report received from the Director of
    Management and Control, Office of the Assistant Secretary of the Army (Financial Management and
    Controller).



                                                    2
    the effectiveness of the management control program as it related to the audit
    objective. See Appendix A for a discussion of the scope and methodology.


Managers’ Internal Control Program
    We identified a material internal control weakness for DFAS as defined by DoD
    Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996. Internal controls did not include adequate safeguards over
    access to funds receipt and approval of funds distribution in PBAS.
    Recommendation B.1., when implemented, will correct the identified weakness
    and result in a more secure operating environment. In addition, the PBAS Project
    Management Office did not identify user access as an internal control weakness in
    its FY 2005 Annual Statement of Assurance. Finding B of this report discusses
    the details of the internal control weakness and the adequacy of DFAS
    management’s self-evaluation process. A copy of the report will be provided to
    the senior official responsible for the Management Control Program at DFAS.




                                         3
            A. Funds Distribution Data
            Funds distribution data within PBAS-FD accurately and completely
            reflected the financial limits and boundaries set forth in the FY 2005
            Army Appropriations Acts. However, managers could not use funds
            distribution data accumulated in PBAS-FD records effectively because
            DFAS Indianapolis did not fully integrate PBAS-FD into the Army
            accounting system and managers did not have other efficient means to
            access fund distribution information. As a result, Army financial
            managers could not exercise timely, effective oversight of funds
            distribution.


Funds Distribution
     Fund distribution data within PBAS-FD accurately and completely reflected the
     financial limits and boundaries set forth in the Army Appropriations Acts as of
     July 31, 2005. In addition, the amounts recorded in PBAS-FD as funds
     distributed or available to be distributed did not exceed the amounts allowed by
     law.


Use of Funds Distribution Data
     Accounting System Integration. DFAS did not fully integrate PBAS-FD into
     the Army accounting system. Each day, automated processes within PBAS-FD
     prepared a summary of fund distribution transactions, such as FADs and
     reprogramming actions, that had occurred that day and were stored in the
     PBAS-FD data files. DFAS personnel then transmitted the summary to DCD.
     Because PBAS-FD summarized the transactions, the files transmitted to DCD did
     not contain transaction-level details, and the funds distribution recorded in DCW
     did not include a complete audit trail. The incomplete transaction-level
     information did not allow managers and auditors to examine how major
     commands distributed funds allotted by the Army Budget Office. If DCD/DCW
     is implemented in January 2006 without such detailed data, audit trails will not
     exist to support Army financial reports and managers will lack effective oversight
     of funds distribution.

     Funding Transactions. PBAS-FD data files maintained records of all Army
     FADs issued since November 1999. However, managers could review these
     funding documents using PBAS-FD for only 45 days after the documents were
     issued. After the FADs were no longer available on PBAS-FD, managers outside
     of DFAS had to request that PBAS-FD personnel provide them a copy of the
     funding document. After 13 months, managers no longer had access to detailed
     transactional data and could obtain only summary data. Financial managers have
     the same level of access to information on funds management transactions other
     than FADs, such as reprogramming actions below the threshold established by the
     current DoD annual appropriations act. PBAS-FD created documents similar to
     FADs for reprogramming transactions below the threshold, and, although they

                                         4
    were stored in PBAS-FD, DFAS managers could view them without assistance
    only for 45 days. As a result, Army managers used spreadsheets or other
    automated methods to track reprogramming transactions. For example, Army
    Budget Office officials told us they did not know the viewing system existed and
    were developing plans to enhance another system to monitor “below the
    threshold” reprogramming actions. Managers will be able to retrieve and review
    FADs as necessary if PBAS-FD provides DCD with daily records of funds
    management activity (FADs and reprogramming actions) at the transaction level.

    Oversight of Funds Distribution. As a result of the restricted access to the
    funds distribution data, Army financial managers could not exercise timely,
    effective oversight of funds distribution. DFAS Indianapolis should modify the
    interface between PBAS-FD and DCD so that PBAS-FD provides DCD with
    daily records of funds management activity at the transaction level. The funds
    management activity would then be recorded in DCW as general ledger
    transactions in accordance with the U.S. Government Standard General Ledger,
    and managers could retrieve and review all reprogramming actions regardless of
    when they occurred.


Management Comments on the Finding and Audit Response
    Although not required to comment, the Director of Management and Control,
    Office of the Assistant Secretary of the Army (Financial Management and
    Comptroller) provided the following comments on this finding. For the full text
    of the comments, see the Management Comments section of the report.

    Army Comments on the Centralized Oversight of Fund Distribution. The
    Director of Management and Control stated there were some factual errors in the
    draft report. The Army informal comments addressed the discussion of “Fund
    Distribution” in the draft report (page 2 of the report). The Director of
    Management and Control also made a clear distinction between distribution and
    control of funds and program execution. Director of Management and Control
    stated that PBAS-FD was designed to provide controls over the availability and
    distribution of program authority, budget authority, and funds with Treasury and
    not to provide a fully integrated distribution, control, and execution system.

    Audit Response. We made changes to the discussion on “Fund Distribution” that
    were informally suggested by the Director of Management and Control in
    December 2005. We agree that PBAS-FD is not intended to be a “fully integrated
    distribution, control, and execution system.” However, as the finding stated,
    PBAS-FD did not provide the remainder of the Army’s accounting systems with
    the information necessary to record funds distribution activity at the individual
    transaction level. Although some managers may have access to physical copies of
    some FADs for extended periods of time, other managers not located at the site
    where the physical copies are stored would not have access to them. All Army
    managers should have automated access to detailed fund distribution information.
    However, PBAS does not provide automated access to these records after 13
    months.



                                        5
Recommendation and Management Comments
    A. We recommend that the Director of Defense Finance and Accounting
    Service modify Program Budget Accounting System Funds Distribution and
    the Defense Finance and Accounting Service Corporate Database to record
    funds distribution information at the transaction level.

    Management Comments. The Defense Finance and Accounting Service
    Director, Information and Technology concurred and estimated that the
    recommended action would be completed by December 31, 2006.




                                      6
           B. Funds Distribution Controls
           Controls over funds distribution performed through PBAS-FD needed
           improvement. Army organizations issued FADs without adequate review
           and approval, and the PBAS Office did not adequately control access to
           PBAS-FD. These two conditions occurred because existing controls over
           both FAD approval practices and access to PBAS-FD were incomplete
           and ineffective. As a result, Army funds may be distributed incorrectly or
           to unauthorized recipients.


Control Requirements
    Both DoD and DFAS have established specific criteria for the control of funds
    distribution.

            DoD Guidance. DoD 7000.14-R, “DoD Financial Management
    Regulation, volume 14, Appendix A, “Procedures for the Administrative Control
    of Funds,” August 1995, states that the Under Secretary of Defense (Comptroller)
    or designee will make allocations of apportioned amounts, in writing, to the heads
    of DoD Components. The Secretary of the Army, or designee, must make further
    allocations of apportioned amounts, in writing, to the heads of operating agencies.
    DoD guidance also states that:

           •   The original signed document or an authenticated copy bearing a
               signature or an electronic equivalent of a signature must be forwarded
               to the recipient of the allocation. This does not preclude the use of an
               automated system to communicate and record fund subdivisions as
               long as a confirmation copy bearing an authenticated signature or an
               electronic equivalent of a signature is available to the recipient through
               the automated system.

           •   The use of an electronically reproduced equivalent of an original
               signature is considered an acceptable implementation of the
               requirement for a document containing an authenticated signature.
               However, in accomplishing electronic transmission of funds, internal
               controls for electronically transmitted allocations and suballocations
               must provide validation of fund authorities by use of access codes and
               lockout techniques. The authentication, signature element, and symbol
               must be included as part of electronically produced funding
               documents.

          DFAS Guidance. DFAS Indianapolis Regulation 37-1, “Finance and
    Accounting Policy Implementation,” chapter 3, “Program and Budget Authority,”
    May 2004, requires the Director of DFAS Indianapolis to:

           •   establish internal control procedures; and

           •   design, operate, and maintain the official fund distribution and control
               system (PBAS).


                                         7
    DFAS Indianapolis Regulation 37-1, “Finance and Accounting Policy
    Implementation,” chapter 3, “Program and Budget Authority,” May 2004, also
    requires the Deputy Assistant Secretary of the Army (Budget) to ensure that
    proper administrative and statutory controls are maintained on funding documents
    in conjunction with appropriation/fund managers and sponsors.

            Information Assurance Policy. DoD Instruction 8500.2, “Information
    Assurance (IA) Implementation,” February 6, 2003, implements policy, assigns
    responsibilities, and prescribes procedures for the protection of DoD information
    systems. DoD Instruction 8500.2 requires that information assurance personnel
    establish and manage authorized-user accounts for DoD information systems.
    This requirement includes deactivating user accounts when access to DoD
    information systems is no longer needed.


Funding Authorization Documents
    Army organizations issued FADs without adequate review and approval. Existing
    controls over FAD approval practices were incomplete and ineffective. We
    visited four Army organizations that issue FADs. Managers at three of the
    organizations told us that they did not review or approve the FADs. Instead, the
    FADs were issued as prepared but without review. At one major command that
    controlled several operating agencies, the authorizing official responsible for
    some appropriations did personally review and approve FADs. However, other
    officials of the same major command responsible for other appropriations did not
    personally review or approve FADs. Some provision should be made for
    authorizing officials to review and approve the documents. DFAS Indianapolis
    should develop procedures requiring the personal review of high dollar value
    FADs and selective review of smaller dollar value FADs.


Access Control
    Edit Tables. Audit trails did not exist for requests to make changes in the
    PBAS-FD edit tables. Only operating agencies and allotment holders listed in the
    PBAS-FD edit tables could receive or distribute funds. The PBAS Office should
    add operating agencies and allotment holders to the edit tables only when needed
    and properly authorized. DFAS Indianapolis personnel informed us that they
    added new operating agencies and allotment holders to the PBAS-FD edit table
    based on telephone or e-mail requests but did not ensure that the individuals
    requesting the additions were authorized to do so. DFAS Indianapolis personnel
    did not maintain a record of these requests or a list of officials authorized to
    request changes to the PBAS-FD edit tables. Without appropriate controls, an
    unauthorized operating agency or allotment holder could be added to the
    PBAS-FD edit tables. The PBAS Office should first conduct a one-time
    examination of the PBAS-FD edit tables to ensure the tables include only those
    operating agencies and allotment holders authorized to receive or distribute funds.
    The PBAS Office should then establish controls that ensure that the PBAS-FD
    edit tables are kept current.


                                         8
Operating Agencies and Allotment Holders. The PBAS Office did not ensure
that the PBAS-FD edit tables included only operating agencies and allotment
holders that needed to receive or distribute funds. The PBAS-FD edit tables also
included many inactive operating agencies and allotment holders. The PBAS
Office personnel provided us with a list of operating agencies and their associated
allotment holders in the PBAS-FD edit tables (PBAS-FD Operating
Agency/Allotment Serial Number [OA/ASN] List) as of September 7, 2005. We
compared this list to the operating agencies identified in the summary funds
distribution data PBAS-FD provided to the Army accounting system for July
2005 and those identified in DFAS Indianapolis Regulation 37-100-2005, “The
Army Financial Management Structure for FY 2005,” June 2005. Table 1
displays the detailed results of that comparison.

                Table 1. Comparison of Operating Agencies in
                           PBAS-FD OA/ASN List
                 DFAS Indianapolis Regulation 37-100-2005
                      PBAS-FD Fund Distribution Data
                                                               Operating Agencies
   In all three data sources                                              69
   In PBAS-FD OA/ASN List and Regulation                                  18
     but not Fund Distribution Data (Inactive)
   In Fund Distribution Data and Regulation                                3
     but not PBAS-FD OA/ASN List
   In Fund Distribution Data Only                                          3*
   Total Operating Agencies                                               93
 *These operating agencies were used only for Departmental operations at DFAS
 Indianapolis.

We also compared PBAS-FD OA/ASN List to the allotment holders identified in
the summary funds distribution data PBAS-FD provided to the Army accounting
system for July 2005. Table 2 displays the detailed results of that comparison.

                 Table 2. Comparison of Allotment Holders in
                           PBAS-FD OA/ASN List
                      PBAS-FD Fund Distribution Data
                                                                Allotment Holders
   In both data sources                                                   2,112
   In PBAS-FD OA/ASN List Only (Inactive)                                   127
   In Fund Distribution Data Only                                            74
   Total Allotment Holders                                                2,313




                                     9
    Only 74.2 percent (69 of 93) of the Army’s operating agencies and only
    91.3 percent (2,112 of 2,313) of the Army’s allotment holders were in all data
    sources. Approximately 19.3 percent (18 of 93) of the operating agencies and 5.5
    percent (127 of 2,313) of the allotment holders were inactive.

    Comparison of information provided by selected major Army commands to the
    PBAS-FD OA/ASN List confirmed that the operating agencies and allotment
    holders actually used for receipt and distribution of funds did not match those
    listed in the PBAS-FD OA/ASN List.

           •   Army Materiel Command. The PBAS-FD OA/ASN List identified
               22 operating agencies and 446 allotment holders as controlled by the
               Army Materiel Command. Army Materiel Command personnel
               informed us that they used only 12 of the operating agencies and 170
               of the allotment holders.

           •   Army Training and Doctrine Command. The PBAS-FD OA/ASN
               List identified 4 operating agencies and 119 allotment holders as
               controlled by the Army Training and Doctrine Command. The Army
               Training and Doctrine Command personnel informed us that they used
               all 4 of the operating agencies, but only 67 of the allotment holders.

           •   Army Corps of Engineers. The PBAS-FD OA/ASN List identified 1
               operating agency and 76 allotment holders as controlled by the Army
               Corps of Engineers. Army Corps of Engineers personnel informed us
               that they used only 65 of the allotment holders.

           •   Installation Management Activity. The PBAS-FD OA/ASN List
               identified 1 operating agency and 248 allotment holders as controlled
               by the Installation Management Activity. Installation Management
               Activity personnel informed us that they actually used only 213 of the
               allotment holders.

    Operating agencies and allotment holders that no longer receive or distribute
    funds should be removed from the edit tables to reduce the risk of unauthorized
    funds distribution transactions. The PBAS Office should conduct a one-time
    examination of the PBAS-FD edit tables to ensure the tables include only those
    operating agencies and allotment holders needed to receive or distribute funds.
    The PBAS Office should then establish controls that ensure that the PBAS-FD
    edit tables are kept current.


Adequacy of Management’s Self-Evaluation
    The FY 2005 self-evaluation of internal controls prepared by the PBAS Office did
    not identify and report the problems we identified with FAD authorizations and
    user access as an internal control weakness. DFAS Indianapolis had identified
    the PBAS Office as the assessable unit.




                                        10
    Because the PBAS Office was the assessable unit, it had responsibility for
    reporting problems with FAD approval and PBAS-FD user access as a material
    weakness. However, the Director of DFAS Indianapolis had the regulatory
    responsibility for management controls over funds distribution. Until the
    recommendations in this report have been implemented and the internal control
    weakness has been corrected, DFAS should report FAD approval and PBAS-FD
    access as a material internal control weakness in the Annual Statement of
    Assurance.


Recommendations, Management Comments, and Audit
  Response
    B.1 We recommend that the Deputy Undersecretary of the Army (Budget)
    require personal review and approval of Funding Authorization Documents
    by appropriate officials.

    Management Comments. The Director of Management and Control, Office of
    the Assistant Secretary of the Army (Financial Management and Comptroller)
    concurred with the recommendation but stated that funding authorizations were
    subject to extensive controls prior to processing through PBAS-FD. The Director
    of Management and Control acknowledged that the audit revealed that there is no
    uniformity at the operating agency level with respect to senior level review and
    oversight of funding authorizations prior to release to subordinate organizations.
    However, the Director of Management and Control stated that other procedures
    compensate for this deficiency and additional guidance may be issued to the
    operating agencies at an unspecified date.

    Audit Response. The Director of Management and Control’s comments are
    partially responsive. The controls described by the Director of Management and
    Control do not ensure that the funding authorizations issued through PBAS-FD
    actually implement the planned issuance of funds. Also, the Director of
    Management and Control did not intend to distribute the additional guidance to
    the Army Budget Office. We request the Director of Management and Control
    reconsider his position and provide comments on the final report.

    B.2 We recommend that the Director of Defense Finance and Accounting
    Service

           a. Establish effective internal controls over the Program Budget
    Accounting System Funds Distribution Module and related funds
    distribution information. At a minimum,

                   (1) Require responsible officials to authorize additions and
    deletions to the Program Budget Accounting System Funds Distribution
    Module edit tables and maintain records of all such changes.

    Management Comments. The DFAS Director, Information and Technology
    concurred, stating that the PBAS-FD team will validate the authority of
    individuals requesting additions and deletions to the PBAS-FD edit tables and


                                        11
maintain records of requested changes. The Director estimated that the
procedures would be established by March 1, 2006.

               (2) Conduct a one-time examination of the Program Budget
Accounting System Funds Distribution Module edit tables to ensure the
tables include only those operating agencies and allotment holders that need
to receive or distribute funds.

Management Comments. The DFAS Director, Information and Technology
concurred and stated that after identifying inactive organizations, the PBAS-FD
team would remove the necessary edit table entries by May 31, 2006.

             (3) Establish controls that ensure that the Program Budget
Accounting System Funds Distribution Module edit tables are kept current.

Management Comments. The DFAS Director of Information and Technology
concurred and estimated that the procedures would be established by
June 30, 2006.

       b. Report user access to Program Budget Accounting System Funds
Distribution as a material internal control weakness in the Annual
Statement of Assurance until Recommendation B.2.a. has been implemented
and it has been independently verified that the weakness has been corrected.

Management Comments. The DFAS Director, Information and Technology
nonconcurred, stating that although the recommended actions would be
completed, the deficiencies identified by the audit did not rise to the level of a
material weakness.

Audit Response. The deficiencies identified in the report did constitute a
material weakness in controls over PBAS-FD. Army managers used PBAS-FD to
distribute $149 billion in FY 2005 appropriations. Army funds are vulnerable to
incorrect distribution or distribution to unauthorized recipients. The DFAS
Director, Information and Technology has agreed to implement Recommendation
B.2.a. prior to the next annual statement of assurance. No additional comments
are requested. We will perform a followup review after June 30, 2006, as part of
our internal control work on the FY 2006 Army General Fund Financial
Statement to determine if DFAS has implemented Recommendation B.2.a.




                                      12
Appendix A. Scope and Methodology
   We reviewed the PBAS-FD system. Specifically, we reviewed funds distribution
   information accumulated by PBAS-FD and transmitted to Army departmental
   accounting systems for all Army funds. We also reviewed the implementation of
   the requirements of the DoD Appropriations Acts for FY 2005 as it related to the
   Army. Specifically, we determined whether the amount appropriated by
   Congress, and all applicable rescissions and restrictions, had been correctly
   recorded in PBAS-FD and accurately passed to the Army Accounting System.

   We interviewed DoD personnel at the Army Budget Office, the U.S. Army
   Finance Command, and at each of the installations we visited during the field
   work.

   We selected Army installations to visit based on the amount of funds operating
   agencies or allotment holders at those installations received in the Operations and
   Maintenance appropriations. We visited:

          •   U.S. Army Materiel Command, Fort Belvoir, Virginia; and Aberdeen
              Proving Grounds, Maryland.

          •   U.S. Army Installation Management Agency, Alexandria, Virginia.

          •   Training and Doctrine Command, Fort Monroe, Virginia; and Fort
              Eustis, Virginia.

   We examined a limited judgmental selection of FADs that had been distributed by
   the Army Budget Office to the operating agencies located at the installations we
   visited. We verified that the respective operating agencies received the FADs in
   our sample. We observed PBAS users at each installation processing FADs and
   further distributing funds to allotment holders using PBAS-FD. We reviewed
   copies of relevant and significant documents and working papers created by the
   organizations visited, including management reports that incorporated funds
   distributed using PBAS-FD.

   We contacted the U.S. Army Corps of Engineers Finance Center in Millington,
   Tennessee, to identify the allotment holders used for fund receipt and distribution
   by the Army Corps of Engineers. At DFAS Indianapolis, we interviewed
   personnel of the PBAS Office, the Directorate for Departmental Accounting, and
   the DCD Project Management Office.

   We performed the audit from December 2004 through October 2005 in
   accordance with generally accepted government auditing standards.

   Use of Computer-Processed Data. We used the monthly computer-generated
   data files (HFBD1a and HFPD1a) to determine whether the funds distribution
   information recorded by PBAS-FD accurately transmitted the data in the Army
   portion of the FY 2005 DoD Appropriation Act. We tested the reliability of the
   file data by comparing the data in the files to the DoD Appropriations Acts for
   FY 2005 as they related to the Army and related documents such as U.S. Treasury


                                       13
    warrants and Office of Management and Budget allocation documents. We also
    used the data in the files to determine if operating agencies and allotment holders
    were inactive. Nothing came to our attention as a result of the specific procedures
    we performed that caused us to doubt the reliability of the computer-processed
    data.

    Management Control Program. DoD Directive 5010.38, “Management Control
    (MC) Program,” August 26, 1996, and DoD Instruction 5010.40, require DoD
    organizations to implement a comprehensive system of management (internal)
    controls that provides reasonable assurance that programs are operating as
    intended and to evaluate the adequacy of the controls. We evaluated the PBAS
    Office internal controls over funds distribution. Specifically, we reviewed
    procedures that the PBAS Office established over the review of funds distribution
    and the procedures used to assign access responsibilities to users and to deactivate
    users who no longer require access to PBAS-FD. We also reviewed the adequacy
    of management’s self-evaluation of those controls.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of the Defense Financial Management high-risk area.


Prior Coverage
    We did not identify any prior reports issued during the last 5 years that addressed
    PBAS-FD.




                                        14
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organization
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget




                                          15
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Criminal Justice, Drug Policy and Human Resources,
  Committee on Government Reform
House Subcommittee on Energy and Resources, Committee on Government Reform
House Subcommittee on Federalism and the Census, Committee on Government Reform
House Subcommittee on Federal Workforce and Agency Organization, Committee on
  Government Reform
House Subcommittee on Government Management, Finance, and Accountability,
  Committee on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Regulatory Affairs, Committee on Government Reform




                                      16
Department of the Army Comments
                                  Final Report
                                   Reference




                                  Background
                                  Section
                                  “Fund
                                  Distribution”
                                  revised.




                    17
18
19
Defense Finance and Accounting Service
Comments




                      20
21
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service, prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Jack L. Armstrong
Carmelo G. Ventimiglia
Paul C. Wenzel
Mary K. Murphy
Andrew D. Gum
Karen A. Preston
